                              CLOSEOUT FOR M93070035




on his graduate school appli&on. The informant was concerned because the subject was the
recipient of an NSF Minority Graduate Fellowship. The subject had indicated that he was
"HispanicIOther" on his NSF Graduate Fellow ship application.

     In response to OIG's request for information the subject stated that he was both Caucasian
 and Hispanic. He said that his paternal great-grandparents were f r o m He stated that he
 had been raised in a home where both Spanish and English                  and in which Spanish
 customs were observed. He said that he had spent a year in              with relatives attending
~ u b l i school  c and felt most comfortable with his                      The subject provided
copies of his birth certificate and his grandmother's death ceaificate to support his statements.

       For purposes of racial and ethnic identification the National Science Foundation has
defined a Hispanic individual as "a person of Mexican, Puerto Rican, Cuban, Central or South
American or other Spanish culture or origin, regardless of race" (NSF Form 1125). The subject
showed that his ancestors were of Spanish origin and that his cultural upbringing was influenced
by Spanish customs.

    Therefore, OIG determined that there was no substance to this allegation and closed the
case.




Staff Scientist, Oversight

Concurrence:

                                                                                    4/3/73
                                                                  V


                                                  James J. gwolenik
 Deputy Assistant Inspector General for           Assistant Inspector General for Oversight
 Oversight
           . ..   ,
  99$+,,;             /




 ~o&omery K. Fisher
 counsel to the Inspector General

 cc:    Assistant Inspector General for Oversight
        Counsel to the Inspector General
        Inspector General
